              .,- . . . . . . . . .   NATIONAL SCIENCE FOUNDATION
                                          ARLINGTON, VA 22230-




        Office of
    Inspector General



    MEMORANDUM




     SUBJECT:                                   of Possible Duplicate Funding
                        at
            TO:         Case No. I94010002

    On January 29, 1994, we initiated an investigative file-o
    Inc . , a small business which had received seven awards from NSF
    under the Small Business Innovation Research (SBIR) program.
    Through prospective review of SBIR firms and awards, we had
    discovered the possible submission of substantially similar SBIR
    proposals and final reports by
                                 -         to various Federal agencies.
    Our initial review found that-                        submitted a phase I SBIR




1   DARPA and NSF in 1992. However, the ~ ~ ~ - ~ r o p odeclared
                                                            sal     the
    prior DARPA proposal as current support, and the significant
    differences in the respective final reports did not support a
    charge of duplicate funding.        Nonethless, because of the
    substantial similarities between the two, we requested further
    Moltech award documentation from the Department of Energy (DOE) and
    the Department of Health and Human Services (HHS). The file has
    remained active pending review of this documentation.
    Upon their receipt, we reviewed for possible duplication the
    following additional-oposals       and final reports:
                 Asencv         No.              Award Title
                 DARPA        92-060


                  HHS        DK42379-02


                  DOE         15166


                  NS F        9060503

------   -   -
                  NSF    -   -92-0859 I----                                         ---- - - - - -.   - -




                  NS F        8960426                                  (Phase I )
                  NS F        9022225                                  (Phase 11)
                 We found no substanitial duplication or other irregularities
                 concerning these awards. Further investigation in this case is not
                 warranted.
                 This case is closed.
